           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   PERFORMANCE MEASURE REVIEW:
    RELIABILITY OF THE DATA USED
  TO MEASURE THE HEARING PROCESS

    May 2001     A-02-98-91003




  AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

      Conduct and supervise independent and objective audits and
      investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
      operations.
      Review and make recommendations regarding existing and proposed
      legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
      problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

      Independence to determine what reviews to perform.
      Access to all information necessary for the reviews.
      Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                        ~" SECU
                                                       ~C;
                                                        ~~
                                                      W/f1s~~
                                                      \ IIIIII1~~
                                                         '\fls~"
                                          SOOAL             SECURITY
                                           Office of the Inspector General
MEMORANDUM

Date:      May        16,    2001                                                        Refer    To:




To:
           Larry       G. Massanari
           Acting       Commissioner
               of Social       Security
From:
           Inspector General


Subject:
           Performance Measure Review:        Reliability    of the Data Used to Measure                the Hearing
           Process (A-02-98-91 003)



           The Government Performance and Results Act (GPRA) of 19931, requires the Social
           Security Administration    (SSA) to develop performance indicators that assess the
           relevant service levels and outcomes of each program activity. GPRA also requires
           disclosure of the processes used to verify and validate the measured values used to
           report on program performance.        SSA is committed to ensuring the importance of
           verifying and validating performance measures, and the Office of the Inspector General
           audits of the performance measures are a means to achieve this. The objective of this
           audit was to assess the reliability of SSA's Fiscal Year (FY) 1998 performance
           measurement     data for the following GPRA performan,ce indicators related to the hearing
           process:

                                                                 FY   1998   Goal       FY       1998    Actual


           .     Number of hearings pending;                           393,085                          384,313
           .     Hearing processing time (days); and                             338                        341
           .     Percent of hearing decisions made
                 and notices sent within 120 days of filing.                       13                         14


           BACKGROUND

           SSA offers two long-term disability programs. Disability Insurance (Dl) is authorized
           under title II of the Social Security Act (Act). Through the Dl program, eligible workers
           receive monthly benefits if they are found to have a disability that prevents them from
           engaging in substantial gainful activity (SGA) and which will last at least 12 months or
           result in death. Supplemental Security Income (SSI) is authorized under title XVI of the
           Act and provides monthly payments to disabled individuals based on financial need, in
           addition to meeting the same medical requirements as the Dl program.


           I Public    Law    103-62
To establish eligibility, the claimant must file a disability application with SSA. SSA then
forwards the medical file to the Disability Determination Service (DDS) office that serves
the area where the claimant resides. DDS obtains and reviews the medical information
in order to determine eligibility. Once DDS staff completes their work, they input their
determination into their computer system (National Disability Determination Services
System), which is then transmitted to SSA’s computer systems. The claimant is notified
of the determination. The decision notice contains instructions on how to file an appeal.
The claimant has 60 days from the date the notice is received to file a written appeal for
both title II and title XVI denials.

Appeal Process

The following is a summary of the appeals process:

1. The claimant requests that SSA reconsider its initial determination;

2. If the claimant is dissatisfied with the reconsidered determination, the claimant may
   request a hearing before an Administrative Law Judge (ALJ) in the Office of
   Hearings and Appeals (OHA). The request must be made within 60 days from the
   date the reconsideration determination is received. A claimant does not have to
   receive a denial to appeal. For example, a claimant who received a partially
   favorable result may want to appeal;

3. If the claimant is dissatisfied with the ALJ’s decision or dismissal, he/she may
   request an Appeals Council review. The Appeals Council may deny or dismiss the
   request for review or grant the review, and either issue a decision or remand the
   case to an ALJ; and

4. If the claimant is unsatisfied with the Commissioner’s final decision, then he or she
   may appeal to Federal District Court. If a decision is not final, a claimant generally
   may not file an appeal in Federal district court. Moreover, a claimant may appeal a
   partially or fully favorable decision.

The timeliness of the hearing process (step two above) is measured by SSA and
reported as a GPRA performance measure. The following steps describe the hearing
process:

1. The claimant requests a hearing by filing a Request for Hearing by Administrative
   Law Judge Form, Form HA-501 (Form 501) with SSA. SSA establishes a record in
   either the Modernized Claims System (MCS) for title II cases or the Supplemental
   Security Record (SSR) via a 1719b input for title XVI cases;

2. Within 1 business day, the field office (FO) mails the paper Form 501, and the case
   folder, if available, to the Hearing Office (HO) that has jurisdiction over the case;

3. If the case folder is unavailable at the FO when the hearing request is filed, the
   Form 501 is sent to the HO with an annotation that the folder has been requested
   and will be forwarded when it is received in the FO;
                                             2
4. The HO receives the Form 501 and enters the date that the hearing was requested
   at the FO and the date that they received the form at the HO into their Hearing Office
   Tracking System (HOTS). OHA may not process a case without the case folder, but
   they may enter basic information into HOTS; and

5. In the HO, the case is tracked in HOTS, as it is processed (see Appendix E). A
   hearing is scheduled and held, and the claimant is mailed a decision.

HOTS tracks the progress of hearing requests in the HO and provides performance
data on hearing request processing times and the number of pending and processed
cases. The FO and HO computer systems are not linked; therefore no information is
entered into HOTS regarding a case until the HO receives the Hearing Request form in
the mail.

RESULTS OF REVIEW
The data used to measure performance of the hearing process was found to be
unreliable, because it was incomplete and inaccurate. The system used to measure
performance in this area, HOTS, did not contain all of the hearing requests in the year
of our review and data within HOTS was found to be incorrect. Additionally, HOTS
lacked consistent management controls. These weaknesses do not allow HOTS to
produce reliable data for the performance indicators above, which are used to measure
hearing performance.

THE DATA IN THE HEARING OFFICE TRACKING SYSTEM WAS INCOMPLETE

For FY 1998, there were 193,995 requests for hearings within SSR that should have
also been entered into HOTS. Of these, only 179,283 had a matching HOTS record.
This means that 14,712 (7.6 percent) of the hearing requests taken in a FO and entered
into SSR were not tracked in HOTS by the end of FY 1998.

Cases with more recent hearing request dates were more likely to be missing from
HOTS than older cases (See Figure 1). This may be attributable to a delay in time—the
time between a request for a hearing in a FO and the receipt of the Form 501 in a HO.

   Figure 1: SSR Cases Not Recorded in HOTS by Month of Hearing Request Date
                                  (FY 1998)

3000
2500
2000
1500
1000
 500
   0
                                                      il
                                ry




                                                                                           t
                                                                         ly
                                  y
          er



                     r




                                                           ay
                                          ch




                                                                                          r
                                                                  ne
                    r




                                                                                       us
                  be




                                                   pr




                                                                                       be
                               ar
                  be




                                                                       Ju
                              ua
       ob




                                                           M
                                       ar




                                                                Ju




                                                                                     ug
                                                   A
                            nu
                em




                                                                                    em
               em




                           br


                                      M
    ct




                                                                                  A
                          Ja
             ov




                         Fe
   O




                                                                                 pt
             ec




                                               3
                                                                              Se
           N


           D
Of the 251,490 hearing requests within MCS for the period of our review,
18,925 (7.5 percent) were missing from HOTS. In these cases, hearing requests were
taken in a FO and entered into MCS. They were not subsequently entered into HOTS
by the end of FY 1998. Similar to the SSR data, hearing requests that were received
later in the FY were more likely not to have a corresponding record in HOTS (See
Figure 2).

   Figure 2: MCS Cases Not Recorded in HOTS by Month of Hearing Request Date
                                  (FY 1998)

 4000
 3500
 3000
 2500
 2000
 1500
 1000
  500
    0




                                                                                          t
                                                            il
                                y


                                          ry




                                                                               y
                    r




                                                                        e
                   r


                   r




                                                   h




                                                                                                   r
                                                                 ay




                                                                                      us
                 be




                                                                                                 be
           e


                be




                                                            pr
                             ar




                                                                                l
                                                                         n
                                                  c




                                                                             Ju
                                         ua
        ob




                                                                 M


                                                                      Ju
                                               ar
                         nu




                                                                                     ug
                                                           A
              em
              em




                                                                                              em
                                     br


                                               M
   ct




                                                                                    A
                        Ja
            ec
           ov




                                                                                            pt
  O




                                    Fe




                                                                                          Se
          D
           N




Hearing Requests Are Not Forwarded In A Timely Manner

Based on discussions with HO staff, we found that there was a significant delay from
the time a Form 501 was submitted in a FO to the time it was received by a HO.
According to discussions with HO staff, FOs did not forward Forms 501 within 1 day, as
required by SSA’s Program Operations Manual System (POMS). Our analysis of
163,374 closed cases from a random selection of 42 offices found that 29 percent of the
Forms 501 were not entered into HOTS by the HO within 6 days of receipt at the FO. If
the policy in POMS was followed and allowing for mail time between offices, all Forms
501 should have arrived and been entered into HOTS within 1 week. Based on the data
from HOTS, 71 percent of the forms took a week or more to be entered into HOTS by
the HO. Twenty-six percent of the Forms 501 took 30 or more days to be entered into
HOTS. (See Figure 3).




                                                       4
             Figure 3: Number of Days Between Form 501 Request Date and
                                 HOTS Entry (FY 1998)

                           1%
                          2%                                0-6 DAYS
                     9%
                                                            7-13 DAYS
                                            29%
               14%                                          14-29 DAYS

                                                            30-59 DAYS

                                                            60-179 DAYS

                                                            180-364 DAYS
                 24%
                                         21%                > 365 DAYS



The longest delay we identified was 1,796 days for a HO to receive the Form 501. This
case was not an isolated incident since, according to HOTS, there were 76 Forms 501
that took 1,000 days or more for the HOs to receive from the FOs. Besides slowing
down the processing of hearing requests, such delays resulted in inaccurate reporting of
performance. SSA’s calculation of the number of hearings pending for the year was
inaccurate since hearing request forms were received and shown in MCS or SSR but
not received by a HO and entered into HOTS. Therefore, some cases with hearing
request dates in FY 1998 were not counted as pending cases since they were not
forwarded in a timely manner.

We inquired about other causes for the incomplete data in HOTS but were unable to
determine any through our analysis of the data or after discussions with FO and OHA
staff.

THE DATA IN THE HEARING OFFICE TRACKING SYSTEM WAS INACCURATE

HOTS data was compared to SSR and MCS data to ensure that the recorded hearing
request dates in all systems were the same. The hearing request date is used to
calculate the timeliness of hearing request processing. Of the 179,283 SSR records
with a matching HOTS record, 51,021 (28 percent) records had a different hearing
request date in HOTS than in SSR. We also identified discrepancies when we
compared hearing request dates in MCS to those in HOTS. Of the 232,565 records that
were in both MCS and HOTS, 21,599 (9 percent) had a different hearing request date in
HOTS than in MCS.

To validate the hearing request dates in HOTS, we performed additional tests
comparing the dates entered into HOTS to the paper Forms 501 that are filed at the FO.
We selected a multistage sample of 240 closed cases from 8 of the 42 HOs previously
selected (see Appendix A). For 43 of these 240 cases (17.9 percent) either the folder

                                           5
could not be located or the Form 501 was missing from the folder. We were able to
compare the hearing request dates on 197 of the 240 Forms 501 (82.1 percent). HOTS
contained the wrong date for 30 of the 197 HO forms (15.2 percent). The differences
between the hearing request dates in HOTS and dates on the actual documents were
as much as 3 years.

For example, three Forms 501 from two HOs had different hearing request dates in
HOTS:

HOTS Dates                                                               Actual Dates
8/13/94                                                                  8/13/97
6/25/94                                                                  6/25/97
5/19/94                                                                  5/19/97

For projection purposes, we took a conservative approach and treated the 43 missing
Forms 501 from the 8 HOs as if they were correct. Using the 163,374 cases processed
by the 42 HOs in our sample, we estimated that the number of cases where HOTS data
differed from Form 501 data was 20,455 (12.5 percent).

From the population of closed cases from 42 HOs extracted from HOTS (163,374), we
also requested 45 Forms 501 that HOTS data showed took at least 3 years for the HO
to receive from the FO (outlier cases). We were able to test only 23 of the 45 forms
(51.1 percent), as 22 forms (48.9 percent) could not be located. Of these 23,
8 Forms 501 (34.8 percent) had a hearing request date different from the date recorded
in HOTS.

These inaccuracies in the HOTS data do not allow for a reliable assessment of the
hearing processing time in days or the percent of hearing decisions made and notices
sent within 120 days.

While we could not identify the cause for all of the inaccurate dates, our analysis found
that the manual process of sending Forms 501 with hand-written request dates
accounted for inaccuracies within the HOTS data. With the current process, HO staff
have to decipher someone else’s hand writing and input that date into HOTS without
being able to verify the actual date since data from MCS or SSR is not electronically
transferred to HOTS.

HOTS LACKED CONSISTENT MANAGEMENT CONTROLS

There is no standardized policy on quality control of data entered into HOTS. Of the
42 Hearing Office Managers (HOM)2 we contacted, five indicated that there were no
reviews performed on the data entered into HOTS. The other 37 stated that reviews are
performed, but the nature and timing of these reviews varied. For instance, some of the
HOMs used status reports to identify any potential irregularities, while others reported
conducting reviews of the data. The frequency with which these reviews were done
ranged from daily to annually.
2
    In some offices, the position of HOM is referred to as Hearing Office Director.

                                                        6
We also found that standardized training was not provided to staff responsible for HOTS
data management. While 41 of the 42 HOMs we contacted reported that all HOTS
users in their office receive training, the extent and nature varied considerably. When
asked who provides the training, 36 respondents identified the Hearing Office Systems
Administrator, 10 reported their office supervisors, and 4 said it was the HOM. There
were five respondents who indicated various other responses. 3

DURING THE PERIOD OF OUR REVIEW, HEARING PROCESSING TIME WAS
BASED ON DATA FOR 1 MONTH

As reported in the FY 1998 Accountability Report, SSA decided cases and had notices
sent within 120 days in 14 percent of hearing cases, exceeding its goal of 13 percent.
For FY 1998, the performance measures for hearing processing time were calculated
using the hearing cases processed in September. Similar to FY 1998, SSA used
September data to report processing time performance in FY 1999. Recently, the
Agency has decided to change the way it calculates the performance measure. In
FY 2000, SSA calculated hearing processing time as an average of cases processed
throughout the year.

Using the HOTS data for September 1998 from 42 randomly selected offices, we found
that SSA processed 14.9 percent of the hearing requests within 120 days. When the
recalculation was conducted using the data for all months in FY 1998, we found that
SSA processed 12 percent of its requests in 120 days. This difference highlights that
the percent of hearing decisions made and notices sent within 120 days for September
did not represent performance for the entire year.

For our sample of 163,374 closed cases, the lowest percent of cases processed within
120 days was in March (10.4 percent) and the highest was in September (14.9 percent)
(See Figure 4). These figures include dismissals which, according to HOMs, constitute
approximately 10 percent of their office workload and take a shorter time to process
than other cases. Given the monthly differences we agree with SSA’s decision to
redefine the method of calculating processing time by using the entire year’s data.




3
  Question 3 in the HOM survey dealing with who provides HOTS training was an open-ended question
which allowed for multiple responses. Some of the HOMs did provide multiple responses, consequently,
the total number of all responses is greater than the 42 HOMs contacted.

                                                  7
       Figure 4: Percent of Hearing Decisions Made and Notices Sent within 120 Days
                                     by Month (FY 1998)

 1 6
                                                                                                      1 4 .7   1 4 .9
                                                                                             1 4 .2
 1 4

         1 1 .9   1 2 .1                                                    1 2 .1    1 2
 1 2                       1 1 .5                                  1 1 .5
                                    1 0 .7   1 0 .6   1 0 .4
 1 0


   8


   6


   4


   2


   0
         O C T    N O V    D E C    J A N    F E B    M A R        A P R    M A Y    J U N   J U L    A U G    S E P




CONCLUSION AND RECOMMENDATIONS

The HOTS is not a reliable source of performance data for the hearing process. We
found the data within HOTS to be incomplete and inaccurate. There was a lack of
consistent training of staff entering data and a lack of consistent review of the data itself.
One of the main causes of the weaknesses in the system was due to the manual
process of forwarding Forms 501 from FOs to HOs. Accordingly, we recommend that
SSA take the following corrective actions to improve the collection of the data used to
measure OHA performance:

1. Perform a complete review of the process from the initial taking of the Forms 501 in
   the FOs until it is input into HOTS to ensure that data within HOTS is completely and
   accurately captured in a timely manner;

2. Ensure that data is automatically transferred from MCS and SSR to HOTS to
   eliminate the need for the manual input of hearing request dates from the Forms 501
   into HOTS;

3. Establish consistent quality assurance reviews of the data within HOTS; and

4. Develop and present to all staff responsible for HOTS data management a
   standardized HOTS training course to ensure consistent and accurate entry of data
   into HOTS.




                                                               8
AGENCY COMMENTS

In response to our draft report, SSA agreed in principle with all of our recommendations.
SSA agreed to perform a complete review of the hearing process from the initial taking
of the Form 501 in the FO until it is input into HOTS to ensure that data are completely
and accurately captured in a timely manner. SSA also agreed to present a
standardized HOTS training course to all staff responsible for HOTS data management.

SSA indicated that, at the present time, data on hearing request dates from the Forms
501 are automatically propagated from MCS to HOTS with the ability for modification/
correction if deemed necessary by the user. A similar interface with MSSICS instead of
the SSR is being planned. This planning has been deferred pending migration/
consolidation of the existing HOTS system on each HO IWS/LAN server to the
mainframe environment.

SSA also stated that quality assurance reviews of HOTS data have been required of
each HO for a number of years. OIM sends a report to each HO instructing local
management to verify the data against what is contained in HOTS and to take corrective
action, as necessary. Nevertheless, SSA began internal discussions on April 30, 2001
to review this process for improvement and more consistent results.

Additionally, SSA made comments on the methodology of our review. First, the Agency
believes if we had provided a fuller description of the methodology used, it would have
been more beneficial in identifying strengths and weaknesses in its HOTS data-entry
process. Second, the Agency questioned our validation of the MCS and SSR data,
which was compared to the HOTS data for accuracy. Lastly, there was a question
regarding some terminology in our data collection instrument. SSA believed that some
language might have been unfamiliar to HOMs and led them to guess at their
responses.

OFFICE OF THE INSPECTOR GENERAL RESPONSE
We are pleased SSA agrees with our recommendations and we look forward to
receiving an implementation plan detailing the steps the Agency will take to improve the
quality of HOTS data. We acknowledge SSA has an automatic transfer of data from
MSC to HOTS. In fact, we believe this process may account for the substantially lower
incidence of errors found for MCS cases as opposed to SSR cases. Because of this,
we encourage a similar process for SSR records being established. Nonetheless, our
review indicated that of the 232,565 records that were in both MCS and HOTS, 21,599
(9 percent) had a different hearing request date in HOTS than in MCS. The criteria for
modification of the data that is propagated from MCS to HOTS should be reviewed to
minimize data errors.

SSA also stated in its comments, that semiannual “reconciliation audits” have been
required for a number of years. According to generally accepted standards, “quality
assurance reviews” should be performed by a unit external to the process under review.


                                            9
We believe the Agency will consider the important difference between its semiannual
reviews and a quality assurance review.

SSA also stated that more information should have been provided regarding our audit
methodology. Although we believe the information provided was sufficient, we have
included more details in our Scope and Methodology section.

In our validation of the MCS and SSR data, we compared the hearings request date
information on the Forms 501 to the corresponding MCS or OHA query request dates
and satisfied ourselves that the information was reliable (see Appendix C, Sample
Results section). Additionally, the DCI (see Appendix D) was used in telephone
conversations with 42 HOMs. If the terminology were unfamiliar or confusing to the
participants this would have been clarified during the course of our interviews and
uniformly resolved.




                                          10
                                    Appendices
APPENDIX A— Scope and Methodology

APPENDIX B— Acronyms

APPENDIX C— Sample Results

APPENDIX D— Data Collection Instrument

APPENDIX E— Flowchart of Request for Hearing Process

APPENDIX F— Agency Comments

APPENDIX G—OIG Contacts and Staff Acknowledgements
                                                                         Appendix A
Scope and Methodology
To define the hearing process and the systems used to measure performance in this
area, discussions were held with the Office of Hearings and Appeals (OHA) personnel.
Both programmatic and systems staff were contacted to obtain a full understanding of
the processes involved. Further, 42 randomly selected Hearing Office Managers were
interviewed using a standardized data collection instrument (DCI). The DCI contained
questions that focused on the training of staff responsible for performance data
management, the OHA workload, the processing of a Request for Hearing by
Administrative Law Judge Forms, Form HA-501 (Forms 501), the Hearing Office
Tracking System (HOTS), and controls over this system. The DCI is included in
Appendix D.

To assess the reliability of the data used to measure OHA performance, we extracted
641,286 hearing requests tracked in HOTS in Fiscal Year (FY) 1998. Extracts of all
hearings requested in FY 1998 were also obtained from the Modernized Claims System
(251,490 MCS records) and the Supplemental Security Record (193,995 SSR records).
Our data tests did not include Medicare and Adjudicative Officer Pilot cases, or
duplicate records. After fully exploring the impact of the number of cases involved in the
Adjudicative Officer pilot project in respect to the universe of cases we were reviewing,
we believed that the impact was immaterial to our review. Therefore, we excluded such
cases from our data tests, using identifying fields, to extract from the MCS and SSR
records only cases that should have been forwarded to the HOs from which we had
data. The requests contained in MCS and SSR were compared to the HOTS records to
test for the completeness of the data contained in HOTS. We also compared the
hearing request dates on 220 of 285 Forms 501 to ensure these dates were accurately
entered into HOTS.

We also obtained an extract of 281,114 records from the 42 randomly selected Hearing
Offices (HO) for all cases tracked in HOTS in FY 1998, consisting of 163,374 closed
and 117,740 pending cases. Our goal was to use the data from the 42 HOs to
recalculate the time it took SSA to process hearing requests in FY 1998, and to
estimate the number of cases pending. However, because we found that 72,620
records from our universe of 641,286 HOTS cases had request dates differing from the
hearing request dates on either MCS or SSR, we could not rely on the HOTS date to
calculate the hearing processing time. Additionally, because we found 33,637 hearing
request records in either MCS or SSR not recorded in HOTS, we could not use HOTS
data to estimate the number of pending cases.

We did use the data from the 42 HOs to determine the number of days it took HOs to
receive Forms 501 from field offices (FO). However, we did not test the reliability of the
date when the HO received the Forms 501.

To check the accuracy of the hearing request date data within HOTS, a random sample
of 8 HOs was selected and 30 Forms 501 were randomly requested from each office.
                                           A-1
See Appendix C for the statistical results for this multistage design. We also requested
all 45 Forms 501 for cases that, according to HOTS data from 42 randomly sampled
HOs, had taken at least 3 years for the HOs to receive from the FOs. Of the requested
285 records, we received 220 Forms 501 (77 percent). The remaining forms were not
forwarded because the claimant’s folder was purged or missing or the Form 501 was
missing from the folder. We compared the hearing request date on the Forms 501 to
the dates shown in HOTS to check for accuracy of the HOTS data. We also compared
39 Form 501 request dates to the request dates shown on the MCS record for title II
cases or the OHA query1 for title XVI cases, consisting of 24 HO cases and 15 outlier
cases.

The entity audited was the Office of Hearings and Appeals. The audit work was
performed in New York, New York and Baltimore, Maryland between July 1998 and
February 2000. Our audit was conducted in accordance with generally accepted
government auditing standards.




1
  The OHA query provides information on title XVI cases that reflects the date of the original hearing
request. At the time of our review, the FO did not have the capability to input the hearing request date
into the Modernized Supplemental Security Income Claims System (MSSICS). An updated MSSICS
release will reflect the original hearing request date.




                                                    A-2
                                                         Appendix B

Acronyms
ALJ      Administrative Law Judge

DCI      Data Collection Instrument

DDS      Disability Determination Service

DI       Disability Insurance

FO       Field Office

FY       Fiscal Year

GPRA     Government Performance and Results Act

HO       Hearing Office

HOM      Hearing Office Manager

HOTS     Hearing Office Tracking System

MCS      Modernized Claims System

MSSICS   Modernized Supplemental Security Income Claims System

OHA      Office of Hearings and Appeals

OIG      Office of the Inspector General

POMS     Program Operations Manual System

SSA      Social Security Administration

SSR      Supplementary Security Record
                                                                                         Appendix C
 Sample Results
 To administer our Data Collection Instrument (DCI), we took a random sample of 42 of
 the 1431 hearing offices (HO) in the population. During Fiscal Year 1998 these 42
 offices tracked 281,114 hearing cases in the Hearing Office Tracking System (HOTS)
 consisting of 163,374 closed cases and 117,740 pending cases. Our sample results
 are based on a review of the 163,374 closed HOTS cases. After matching Modernized
 Claims System (MCS) and Supplemental Security Record (SSR) hearing request data
 fields to the corresponding HOTS hearing request dates and finding discrepancies, we
 needed to determine which date, if any, was correct. To test the validity of the dates,
 we compared the hearing request date from the source document (Form 501) to the
 corresponding date on the data files.

 We used a multistage sampling design. We randomly selected 8 of the 42 offices we
 selected for our DCI sample and for each of the 8 HOs selected, we randomly selected
 30 closed cases to review. We then requested copies of the Forms 501 for the 240
 cases in our sample.

 We received 197 Forms 501. Of the 197 received, 30 had dates that did not agree with
 the corresponding HOTS request date. For the 43 missing forms, we treated them as
 being correct for projection purposes. Additionally, we validated 39 Form 501 request
 dates (24 HO cases and 15 outlier cases) with the corresponding MCS or Office of
 Hearings and Appeals (OHA) query request dates. We found three HO cases and three
 outlier cases with MCS or OHA query request dates different from that on the Form 501.

     Location          Hearings      Sample       Forms 501       HOTS date        Projected      Projected
                                      Size          Rec'd           error                         Ratio as %
Portland, OR               2,893         30                24              1               96            3.33
Oak Park, MI               5,018         30                28              4              669           13.33
Honolulu, HI                 607         30                29              4               81           13.33
Springfield, MA            2,562         30                17              2              171            6.67
Ft. Lauderdale, FL         7,430         30                24              7            1,734           23.33
Phoenix, AZ                3,596         30                26              4              479           13.33
Tulsa, OK                  4,703         30                21              4              627           13.33
Madison, WI                  290         30                28              4               39           13.33
Total                     27,099        240               197             30            3,896           14.38
Overall                  163,374                                                       20,455           12.52

 We are 90 percent confident that the actual number of HOTS records in error is
 between 7,724 and 33,186.

 1
  At the time of our review there were 143 hearing offices (including satellite offices). As of
 August 23, 2000, there are 139.
                             Appendix D
Data Collection Instrument
Date__________________________________                                          TR DR KF

Name: «FirstName» «LastName»

Phone #: «Phone»

Position: Hearing Office Manager

HO: «HearingOffice»

                           HOTS Review, Hearing Office Manager Survey
                                         A-02-98-91003

Hello. My name is _____ with the Office of the Inspector General. Emily Lurie said
you’d be expecting my call. We are reviewing how the Office of Hearings and Appeals
measures its performance through the Hearing Office Tracking System. I would like to
ask you some questions about how your office uses HOTS. Your answers will be kept
confidential. It should take about an hour. Do you have the time now or would you like
to schedule for another time?

Appointment:
Date:__________________________________
Time:__________________________________

1. Does everyone using HOTS in your office receive the HOTS manual?

       31 Yes (73.8%)
       10 No (23.8%)
       1 DK (2.4%)1

2. Does everyone using HOTS in your office receive HOTS training?

       41 Yes (97.6%)
       1 No (2.4%)  [SKIP TO QUESTION 7]

3. If yes, who provides this training?
   Title:_____________________________

       36   HOSA     (85.7%)
       10   Supervisor (23.8%)
       4    HOM      (9.5%)
       5    Other    (11.9%)2


1
    DK = Don’t know
2
    When percentages do not equal 100, interviewees were allowed to give more than one answer.
                                                        D-1
4. What does the training consist of?

   6 Manual (19.3%)
   18Depends on job (42.9%)
   10General introduction (23.8%)
   2 In depth, step by step (4.8%)
   9 One on one        (21.4%)
   4 Group      (9.5%)
   6 Screens (14.3%)
   30Changes, updates, reviews, status codes, fields, diary dates, data entry,
     procedures, scheduling, running reports    (71.4%)
   3 Other      (7.1%)

5. Does everyone using HOTS receive similar training?

   23 Yes (54.8%)        [SKIP TO QUESTION 7]
   19 No (45.2%)

6. If training differs, why does it differ? (22 responses)

   22 Depends on job description       (100%)

7. On average, how many Forms 501 does your office receive in a day?

    #     (mean=19.83, range=2 to 107)

8. Does your office receive Forms 501 from any place besides the field offices you
   serve?

   19 Yes (45.2%)
   23 No (54.8%) [SKIP TO QUESTION 11]

9. If yes, from where else might your office get Forms 501? (19 responses)

   9 Layers, representatives(47.4%)
   5 Claimants(26.3%)
   10 Other (transfers, Medicare, screening unit, etc.)      (52.6%)

10. What percent of Forms 501 do you get from these other sources?

   __% (mean=11.76, range=1 to 45)

11. How do Forms 501 come into your office?

   38 Regular mail      (90.5%)
   2 Certified mail     (4.8%)
   5 Other: Specify     (11.9%)


                                            D-2
12. Who receives the Form 501 when it is sent to your office?

   27 Master Docket Clerk (64.3%) [SKIP TO QUESTION 14]
   15 Someone else (35.7%)

13. If someone else, who? (15 responses)

   13 Mail clerk/receptionist (86.7%)
   1 Other       (6.7%)
   1 DK (6.7%)

14. Please describe what he/she does with the Form 501?

   14   Opens it (33.3%)
   18   Date stamps (42.9%)
   11   Gives to MDC (26.2%)
   11   Queries (26.2%)
   29   Enters into HOTS (69%)
   6    Acknowledges receipt to claimant (14.3%)
   11   Prepares ALJ file (26.2%)
   5    Requests SSA claim folder    (11.9%)
   9    Stores    (21.4%)
   6    Assigns to ALJ (14.3%)
   4    Other (9.5%)

15. On average, what percent of Forms 501 are received with the case folders?

   ___% (mean=75.4%, range=0 to 100)

16. On average, how long does it usually take for your office to receive the folder after
    your office receives the Form 501 from the field office?

   __ Number of days (mean=52.45, range=2 to 365)
   2 Same day (4.8%)

17. Approximately, for what percent of cases must your office recreate a folder?

   __ % (mean=2.18%, range=0 to 30)
   2 DK (4.8%)

18. If your office does not receive the folder with the Form 501, does the person entering
    the data

   40 start to input data into HOTS while your office waits for the folder? (95.2%)
   1 wait to receive the folder before opening a case receipt in HOTS? (2.4%)
   1 Other. Please explain. (2.4%)



                                            D-3
19. When Forms 501 are inputted into HOTS,

   5 are they batched? (11.9%)
   36 are they entered as they come in?           (85.7%)
   1 DK (2.4%)

20. On average, how long after your office receives the Form 501 does someone enter
    the information into HOTS?

   ___# of days (mean=1.9, range=1 to 7)
   22 same day (52.4%)

21. Who is responsible for inputting information from the Form 501 into HOTS?

   35 MDC (83.3%)
   4 HO clerk (9.5%)
   3 Other (7.1%)

22. Are all cases processed the same way?

   27 Yes (64.3%) [SKIP TO QUESTION 25]
   15 No (35.7%)

23. If no, which cases are processed differently? (15 responses)

   3    Critical case (20.0%)
   2    Screening unit cases (13.3%)
   2    AO pilot (13.3%)
   10   Other (66.7%)

24. How are they processed differently? (15 responses)

   7    Given priority      (46.7%)
   6    Given to senior attorney (40.0%)
   3    specific to pilot (filling out certain forms, etc.)   (20.0%)
   3    Other (20.0%)

25. What happens to the Form 501 after the initial person inputs the data into HOTS?

   11   Goes in ALJ file (26.2%)
   18   Goes in SSA file, copy in ALJ file (42.9%)
   19   Stored for assignment to ALJ (45.2%)
   6    Assigned to ALJ (14.3%)
   5    Assigned/given to senior attorney (11.9%)
   4    Other (9.5%)




                                                 D-4
26. Does the responsibility for inputting data for a claimant’s case

   39 go from person to person, or (92.9%)
   2 is one person responsible for the case through disposition? (4.8%)
   1 Other (2.4%)

27. What date does your office enter as the Request Received date in the HOTS case
    receipt screen?

   12 the date listed on the Form 501 that the request for hearing was received at the
   field office (28.6%)
   23 the date that the Form 501 was actually received at your hearing office (54.8%)
   2 the date that you are entering the data into HOTS (default date)     (4.8%)
   2 Other. Explain. (4.8%)
   3 DK        (7.1%)

28. Data is entered into HOTS when the Form 501 is received at the your office. Is
    there a place in HOTS to record the date that the request for hearing was made at
    the field office?

   35 Yes (83.3%)
   6 No (14.3%) [SKIP TO QUESTION 30]
   1 DK (2.4%)

29. If yes, what is it called? (36 responses)

   30   Request for hearing, or hearing request (83.3%)
   4    Request received (11.1%)
   1    Other     (2.8%)
   1    DK    (2.8%)

30. Is the date that your office receives the Form 501 entered into HOTS?

   37 Yes (88.1%)
   4 No (9.5%)[SKIP TO QUESTION 32]
   1 DK (2.4%)

31. If yes, what is the name of the field in HOTS? (39 responses)

   26   Request received (66.7%)
   6    Claim file received (15.4%)
   3    Other (7.7%)
   4    DK (10.3%)




                                            D-5
32. If data is entered incorrectly, could a case be routed to the wrong out-of-office
    location?

   18 Yes (42.9%)
   23 No (54.8%) [SKIP TO QUESTION 35]
   1 DK (2.4%)

33. If yes, how long a delay might this cause? (17 responses)

   ___# days (mean=13.7, range=3 to 60)
   5 Depends (29.4%)
   2 DK (11.8%)

34. How would you know if this happened? (20 responses)

   2    One of us would ask for it and not find it so we would trace it.   (10.0%)
   8    The office that received it would call to inquire. (40.0%)
   3    The office that should have received it would call to inquire. (15.0%)
   1    We would discover the error during one of our checks.       (5.0%)
   6    Other (30.0%)

35. If a case is permanently transferred out of your office, is it counted as a processed
    case?

   2 Yes (4.8%)          [SKIP TO QUESTION 37]
   39 No (92.9%)
   1 DK (2.4%)

36. If no, what are such cases counted as? (38 responses)

   36 Transfer out (94.7%)
   2 Other (5.3%)
   1 DK (2.6%)

37. If a case is permanently transferred into your office, do you

   3 change the request received date to reflect the date that the case came into your
   office, (7.1%)   [SKIP TO QUESTION 39] or
   33 enter the date the case was transferred in into another field?  (78.6%)
   6 DK (14.3%)

38. What is this field called? (35 responses)

   12   File received (34.3%)
   8    Transfer in (22.9%)
   8    Other (22.9%)
   7    DK (20.0%)


                                            D-6
39. Would a case that is permanently transferred into your office be considered pending
    from the date it was received at the original HO?

   25 Yes (%) [SKIP TO QUESTION 41]
   16 No (38.1%)
   1 DK (2.4%)

40. If no, from what date is it considered pending? (16 responses)

   16 Request for Hearing date from FO      (100%)

41. Are there some cases that are not considered pending, even though a letter of
    disposition has not yet been sent to the claimant? (38 responses)

   2 Yes (5.3%)
   36 No (94.7%) [SKIP TO QUESTION 43]

42. If yes, what types of cases are they? (2 responses)

   1 ”On hold” cases if we receive such instruction from CO      (50.0%)
   1 Other (50.0%)

43. Are dismissed cases considered “processed” in your monthly activity report?

   32   Yes (76.2%)
   1    No (2.4%)    [SKIP TO QUESTION 45]
   7    Some dismissals are, some not (16.7%)
   1    Other (2.4%)
   1    DK (2.4%)

44. What percent of processed cases are dismissals? (41 responses)

   __ % (mean=9.97%, range=1% to 25%)
   4 DK (9.8%)

45. What monthly reports generated by HOTS go to the regional office?

   40   MAR (95.2%)
   19   03 weekly, daily (45.2%)
   9    05 (21.4%)
   8    12G (19.0%)
   22   Other (52.4%)
   1    DK (2.4%)




                                           D-7
46. How is data sent to regional office?

   0 Paper reports (0.0%)
   40 Electronically   (95.2%)
   2 Other      (4.8%)

47. What do Regional Offices do with the data that they receive from the Hearing
    Offices?

   1    send the data to the Central Office to do the analysis, or (2.4%)
   27   analyze the data and send the analysis to the Central Office? (64.3%)
   3    Other. Specify. (7.1%)
   11   Don’t know. (26.2%)

48. Are there any types of cases that are not counted as processed in the monthly
    activity reports?

   16 Yes (38.1%)
   25 No (59.5%) [SKIP TO QUESTION 50]
   1 DK (2.4%)

49. If yes, what are they? (15 responses)

   5    Screening unit dismissals (33.3%)
   2    All dismissals (13.3%)
   3    Some dismissals (not specific)(20.0%)
   5    Transfers (33.3%)
   4    Other (26.7%)

50. How are data entry errors in HOTS corrected? (41 responses)

   22   Different people have different access to certain fields   (53.7%)
   17   Person entering data makes correction (41.5%)
   13   Computer assistant      (31.7%)
   10   HOSA       (24.4%)
   2    Supervisor (4.9%)
   4    MDC (9.8%)
   2    HOM (4.9%)
   3    Other (7.3%)

51. If data is entered incorrectly, could a case be routed to the wrong location in your
    office? (39 responses)

   22 Yes (56.4%)
   17 No (43.6%) [SKIP TO QUESTION 54]




                                             D-8
52. If yes, how long a delay might this cause?

   __ # Days (mean=24.28, range=0 to 365)
   4 Same day or less than 1 day (18.2%)
   3 Depends (13.6%)

53. How would you know if this happened? (22 responses)

   6 Someone looking for it or working on it would not find it   (27.3%)
   12 Person who received it would pint it out (54.5%)
   7 Other (31.8%)

54. Does anyone in your office ever review the data entered into HOTS?

   37 Yes (88.1%)
   5 No (11.9%) [SKIP TO QUESTION 58]

55. If yes, who reviews the data? (37 responses)

   14   HOM (37.8%)
   10   Supervisor (27.0%)
   4    MDC (10.8%)
   9    Computer assistant    (24.3%)
   6    HOSA      (16.2%)
   5    Legal assistant (13.5%)
   6    Everyone who works with the file (16.2%)
   1    Other (2.7%)

56. How do they review it? (37 responses)

   16   Run status reports looking for anything strange  (43.2%)
   9    Conduct audits and locate each file (24.3%)
   7    compare folder to HOTS (18.9%)
   3    Compare HOTS to CICS (8.1%)
   4    Person who gets file checks that HOTS information is correct   (10.8%)
   7    Other (18.9%)

57. How often do they review it? (37 responses)

   __ #Days    (mean=48.21, range= 1 to 365)
   9 Periodically (24.3%)

58. Are cases in HOTS ever purged?

   5    Yes (11.9%)
   1    No (2.4%)    [SKIP TO QUESTION 62]
   34   They are archived (81%)
   2    DK (4.8%)

                                            D-9
59. If yes, how often are they purged or archived? (37 responses)

   __ # Months (mean=2.23, range=1 to 12)
   2 Other (5.4%)
   4 DK (10.8%)

60. Which cases are purged or archived? (36 responses)

   26 All cases closed or closed 1 month (72.2%)
   __ Cases closed this number of months (mean=2.23, range=1 to 12—for all 35
   cases purged or archived)
   1 Other (2.8%)

61. Who does the purging or archiving? (37 responses)

   13 HOSA (35.1%)
   20 Computer Assistant (54.1%)
   4 Other (10.8%)

62. Was your office provided a list of status codes that you must use in HOTS?

   41 Yes (97.6%)
   0 No (0.0%)[SKIP TO QUESTION 64]
   1 DK (2.4%)

63. If yes, who provided this list?

   13   CO     (31.0%)
   12   RO     (28.6%)
   4    HOSA or Computer assistant (9.5%)
   17   Came with HOTS (40.5%)
   7    Other (16.7%)
   1    DK (2.4%)

64. Does HOTS keep a record of how long each case is in each status?

   38 Yes (90.5%)
   3 No (7.1%)  [SKIP TO QUESTION 66]
   1 DK (2.4%)

65. If yes, are these dates included in the reports which are transmitted to the Regional
    Office? (38 responses)

   14 Yes (36.8%)
   22 No (57.9%)
   2 DK (5.3%)



                                           D-10
66. Can a case be in more than one status at a time?

   0 Yes (0.0%)
   42 No (100%)

67. If someone forgets to update a status code and makes the correction later on, what
    date is linked to this new status code? (41 responses)

   25   the date of the change (61.0%)
   9    the date the code should have been changed (22.0%)
   6    Other Explain. (14.6%)
   1    DK (2.4%)

68. Is a disposition document written aside from the letter that is sent to the claimant?

   8 Yes, a separate disposition document is written. (19%)
   33 No, the letter of disposition sent to the claimant is the only account of the
   decision made. (78.6%) [SKIP TO QUESTION 72]
   1 DK (2.4%)

69. If yes, what is it called? (15 responses)

   3 Transmittal (20.0%)
   12 Decision and cover letter (80.0%)
   1 Other (6.7%)

70. Is the letter sometimes sent to the claimant before this disposition document is fully
    prepared and placed in the folder? (11 responses)

   0 Yes (0.0%)
   10 No (90.9%) [SKIP TO QUESTION 72]
   1 DK (9.1%)

71. If yes, for what percent of cases might this happen, on average? (no responses)

   __ %

72. When is a case considered closed in HOTS?

   0    When the ALJ makes his/her decision. (0.0%)
   0    When the letters of disposition are written. (0.0%)
   1    When the letter of disposition is signed by the ALJ. (2.4%)
   35   When the letters of disposition are mailed. (83.3%)
   6    Some other date. Specify.       (14.3%)




                                            D-11
73. Is there a field in HOTS for the date that the ALJ makes his/her decision?

   14 Yes (33.3%)
   28 No (66.7%) [SKIP TO QUESTION 75]

74. If yes, what is it called? (22 responses)

   20 Status code update (90.9%)
   2 Other (9.1%)

75. Is there a field in HOTS for the date that letters of disposition are signed?

   30 Yes (71.4%)
   12 No (28.6%) [SKIP TO QUESTION 77]

76. If yes, what is it called? (33 responses)

   22 “Sign” status code (66.7%)
   8 Other (24.2%)
   3 DK (9.1%)

77. Is there a field in HOTS for the date that letters of disposition are mailed out?

   40 Yes (95.2%)
   2 No (4.8%)  [SKIP TO QUESTION 79]

78. If yes, what is it called? (40 responses)

   24   “Closed” status code date (60.0%)
   9    “Mail” status code date (22.5%)
   4    Other (10.0%)
   3    DK (7.5%)

79. How often are letters of disposition mailed out?

   31 The day they are written. (73.8%)
   3 They are batched. (7.1%)
   5 Favorable decisions are held for 2 days; non-favorable are sent out right away
   (11.9%)
   3 Other (7.1%)




                                            D-12
80. What happens to the HO folders (not the SSA folders) when a case is closed? (33
    responses)

   24 They are destroyed.    (72.7%)
   __ Number of months that favorable ALJ files are held before they are destroyed.
      (mean=19.48, range=6 to 36)
   __ Number of months that non-favorable ALJ files are held before they are
   destroyed. (mean=20.58, range=6 to 36)
   9 They are stored in a closed file cabinet (no further information). (27.3%)

81. In your opinion, what one thing, from hearing request to disposition, do you think
    causes the biggest delay in the hearing process?

   7 Short of staff in some areas, too many cases (16.7%)
   7 Scheduling problems because of claimants (no-shows, want rep), or ALJ (too
   busy) (16.7%)
   6 No claim file, waiting (14.3%)
   7 Work-up by legal assistant      (16.7%)
   17 Pre and post hearing development, consultative exams, ALJ reviews (40.5%)
   8 Other (19.0%)

82. Is there anything that you would change about HOTS?

   28 Yes (66.7%)
   14 No (33.3%) [THE END.]

83. If yes, what? (28 responses)

   7    Should be compatible with FO and SSA systems (CICS) (25.0%)
   11   Should allow for noting special cases, pilot cases (more options) (39.3%)
   3    Can eliminate some fields and status codes (fewer options) (10.7%)
   7    Report screens—should be on screens and by any status or clerk (25.0%)
   1    Should report when a hearing is waived (3.6%)
   1    Our equipment is bad/old/not working/not enough/etc.      (3.6%)
   9    Other (32.1%)

   [THE END.]




                                           D-13
                                    Appendix E

Flowchart of Request for Hearing Process
                                      Form 501 filed at Field Office



                                                N                         Hearing Office
            Payment Center
                                                         Master Docket Clerk opens case in HOTS (MDKT)*,
         Can Payment Center
                                                        sends acknowledgment to claimant (UNW K=ready for
       approve payment without a
                                                         W KUP), assigns Administrative Law Judge (W KUP).
               hearing?
                                                                         Data input: MDC

                          Y                                        Administrative Law Judge (ALJ)
                                                            Legal Assistant enters data and develops case.
                                                                     Data input: Legal Assistant

                Pre-Hearing Development (PRE)           Y
                Decision W riter Review (DW R)
                      ALJ Review (ARPR)                            Is any documentation or evidence
                                                                               missing?
                                                                                          N
                                                                     Ready to schedule (RTS): all
                                                                         development done
                                                                         Scheduled (SCHD)


                                                                             Hearing is held.

                                                            Y
                Post-Hearing Development (POST)                     Are new issues raised at hearing?
                       ALJ Review (ALPO)
                                                                                                N
                                                                Legal Assistant submits to writers (UNW R).
                                                                Decision W riter Supervisor assigns case to
                                                                              a writer (DW RT)
                                                                         Data input: Supervisor


                                                        Decision W riter creates draft.
                                                        Submits to typing pool (UNTP)
                                                             Data input: W riter


                                                    Typing Pool Supervisor assigns case to
                                                                typist (TYPG).
                                                            Data input: Supervisor


                                                            Typist prepares notice.
                                                Returns to W riter for proof-reading (CORR).
                                                W riter returns to typist for corrections (FINL).
                                                               Data input: Typist

                                                        ALJ (SIGN=awaiting signature)
                                                           Signs letter of Disposition
                                               At this point can send back to writer for editing.

                                                            Awaiting Mail (MAIL)
                                               Supervisor assigns to HO clerk who mails letter
                                                     and closes case in HOTS (CLSD).

*This description of the flow of a request for hearing through the Hearing Office Tracking System (HOTS),
shows the HOTS status codes in parentheses after a given stage of the hearing process.
                  Appendix F

Agency Comments
                                                           ~ SEC(;
                                                          ~C;         ~-"
                                                         ~ !7/!' l\.~:':).
                                                              USA
                                                     ,        IIIIII1 ~~
                                                            i\-JsTV

                                        SOCIAL                SECURITY


MEMORANDUM


          April   18,   2001                                                     Refer To: SlJ-3

To:       James G. Huse, Jr.
          Inspector General

          Larry G. Massanari                       P"\




Subject   Office of the Inspector General Draft Report, "Perfonnance Measure Review: Reliabilityofthe
          Data Used to Measure the Hearing Process" (A-O2-98-9l003)-INFORMATION           .


          Our comments on the subject draft report are attached. If your staff have any questions, they
          may contact Robert Berzanski on extension 52675.

          Attachment:
          SSA Comments
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT, "PERFORMANCE
MEASURE REVIEW: RELIABILITY OF THE DATA USED TO MEASURE THE
HEARING PROCESS" (A-02-98-91003)

We appreciate the opportunity to comment on the draft report. Following are our
comments on the recommendations.

Recommendation 1

Perform a complete review of the process from the initial taking of the Form 501 in the
field offices (FO) until it is input into the Hearing Office Tracking System (HOTS) to
ensure that data within HOTS is completely and accurately captured in a timely manner.

Comment

We agree. SSA will design and conduct such a review in this fiscal year

Recommendation 2

Ensure that data is automatically transferred from the Modernized Claims System
(MCS) and Supplemental Security Income Record (SSR) to HOTS to eliminate the need
for the manual input of hearing request dates from the Forms 501 into HOTS.

Comment

Such a transfer of data already exists for MCS. The appropriate MCS data is
automatically propagated into HOTS and is available for modification/correction if
deemed necessary by the user

The Office of Systems held general planning discussions in reference to implementing a
similar interface with the Modernized Supplemental Security Income Claims System
(MSSICS) instead of the SSR for Title XVI data. MSSICS transfer of data will then be
similar to the MCS transfer. Further planning has been deferred pending
migration/consolidation of the existing HOTS system on each Hearing Office (HO)
Intelligent Workstation/Local Area Network server to the mainframe environment. The
HOTS migration effort is currently in the planning and analysis phase.
Recommendation 3

Establish consistent quality assurance reviews of the data within HOTS.

Comment

Semi-annual HOTS/Case Control System (CCS) reconciliation audits have been
required of each HO for a number of years. The Office of Information Management

                                         F-1
sends a CCS report to each HO instructing local management to verify the CCS data
against HOTS data and to take corrective action, as necessary. Nevertheless, SSA will
initiate internal discussions by April 30, 2001 to review this process for improvement
and more consistent results, as well as to develop specific detailed instructions for how
the review will be conducted.
Recommendation 4

Develop and present to all staff responsible for HOTS data management a standardized
HOTS training course to ensure consistent and accurate entry of data into HOTS.

Comment

We agree. SSA will develop options for delivering training by the end of the fiscal year.

Technical Comments

Page 1– BACKGROUND – First paragraph, Change sentence 3 to “Through the DI
program, eligible workers receive monthly benefits if they are found to have a disability
that prevents them from engaging in substantial gainful activity (SGA) and, which will
last at least 12 months or result in death.”

Page 2– BACKGROUND –Second paragraph, line 5 and 7 – Change “decision” to
“determination” in both places.

Page 2– BACKGROUND –Second paragraph, line 8 – Change “receipt of the notice” to
“the date the notice is received.”

Page 2– Appeal Process – Item 2 - Change to “If the claimant is dissatisfied with the
reconsidered determination, the claimant may request a hearing before an
Administrative Law Judge (ALJ) in the Office of Hearings and Appeals (OHA). The
request must be made within 60 days from the date the reconsideration determination is
received. A claimant does not have to receive a denial to appeal. For example, a
claimant who received a partially favorable result may want to appeal.”

Page 2– Appeal Process – Item 3 - Change the second sentence to “The Appeals
Council may deny or dismiss the request for review or grant the review, and either issue
a decision or remand the case to an Administrative Law Judge.” (Follow language in 20
CFR 404.967).

Page 2– Appeal Process – Item 4 - Replace with “If the claimant is unsatisfied with the
Commissioner’s final decision, then he or she may appeal to Federal District Court. If a
decision is not final, a claimant generally may not file an appeal in Federal district court
[We say “generally” since there are limited circumstances under which a claimant can
establish jurisdiction in Federal court without exhausting his or her administrative
remedies.] Moreover, a claimant may appeal a partially or fully favorable decision.”



                                          F-2
Methodology Comments

1. A fuller description of the methodology could more meaningfully assist OHA in
   identifying strengths and weaknesses in its HOTS data-entry scheme. For example,
   the OHA participants in the January 2001 conference call with the OIG raised
   concerns that several temporary initiatives OHA pursued during the audit period,
   including the adjudication officer program and various other short-term disability
   projects, may have skewed the HOTS data and affected the OIG’s measurement of
   its accuracy and completeness. The OIG participants in the conference call offered
   assurances during that call that steps had been taken to prevent the temporary
   initiatives from biasing OIG’s data collection concerning the ongoing completeness
   and accuracy of HOTS data. However, the OIG draft report does not detail these
   steps. Nor did the OIG participants explain the steps during the conference call. We
   remain uncertain how OIG ensured that the data it collected during the audit period
   reflected baseline HOTS data reliability, rather than any skewing effects of the
   several temporary initiatives.

2. The methodology appears to assume that MCS and SSR inputs were reliable and
   that discrepant OHA data reflected unreliable HOTS entries. We do not understand
   how the OIG validated its assumption that the MCS and SSR inputs were reliable.
   Finally, we would submit that some of the terminology in OIG’s data collection
   instrument could have been unfamiliar to the hearing office managers offering
   responses, and could have caused the managers responding to the instrument to
   guess at their responses. For example, the term “letter of disposition” is not one
   commonly used in hearing offices and may have been interpreted differently by
   different managers.




                                        F-3
                                                                         Appendix G

OIG Contacts and Staff Acknowledgements
OIG Contacts
   Frederick C. Nordhoff, Director,
   Financial Management and Performance Monitoring Audit Division
   (410) 966-6676

   Timothy Nee, Deputy Director (212) 264-5295

Acknowledgments
In addition to those named above:

   Stephen L. Liebman, Senior Auditor-in-Charge

   Denise Ramirez, Program Analyst

   Kevin Joyce, Program Analyst

   Patrick Kennedy, Audit Manager

   Alan Lang, Senior Auditor

   Annette DeRito, Program Analyst


   For additional copies of this report, please contact the Office of the Inspector
   General’s Public Affairs Specialist at (410) 966-5998. Refer to Common
   Identification Number A-02-98-91003.
                           DISTRIBUTION SCHEDULE

                                                                             No. of
                                                                            Copies

Commissioner of Social Security                                                  1
Management Analysis and Audit Program Support Staff, OFAM                       10
Inspector General                                                                1
Assistant Inspector General for Investigations                                   1
Assistant Inspector General for Executive Operations                             3
Assistant Inspector General for Audit                                            1
Deputy Assistant Inspector General for Audit                                     1
 Director, Systems Audit Division                                                1
 Director, Financial Management and Performance Monitoring Audit Division        1
 Director, Operational Audit Division                                            1
 Director, Disability Program Audit Division                                     1
 Director, Program Benefits Audit Division                                       1
 Director, General Management Audit Division                                     1
Issue Area Team Leaders                                                         25
Income Maintenance Branch, Office of Management and Budget                       1
Chairman, Committee on Ways and Means                                            1
Ranking Minority Member, Committee on Ways and Means                             1
Chief of Staff, Committee on Ways and Means                                      1
Chairman, Subcommittee on Social Security                                        2
Ranking Minority Member, Subcommittee on Social Security                         1
Majority Staff Director, Subcommittee on Social Security                         2
Minority Staff Director, Subcommittee on Social Security                         2
Chairman, Subcommittee on Human Resources                                        1
Ranking Minority Member, Subcommittee on Human Resources                         1
Chairman, Committee on Budget, House of Representatives                          1
Ranking Minority Member, Committee on Budget, House of Representatives           1
Chairman, Committee on Government Reform and Oversight                           1
Ranking Minority Member, Committee on Government Reform and Oversight            1
Chairman, Committee on Governmental Affairs                                      1
Ranking Minority Member, Committee on Governmental Affairs                       1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                              1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        97
                      Overview of the Office of the Inspector General
                                          Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the Social
Security Administration’s (SSA) programs and makes recommendations to ensure that program
objectives are achieved effectively and efficiently. Financial audits, required by the Chief
Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present the
Agency’s financial position, results of operations, and cash flow. Performance audits review the
economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                                  Office of Executive Operations

The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG) by
providing information resource management; systems security; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and
Results Act. OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG’s public
affairs, media, and interagency activities and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                      Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes
wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters, representative
payees, third parties, and by SSA employees in the performance of their duties. OI also
conducts joint investigations with other Federal, State, and local law enforcement agencies.

                          Office of the Counsel to the Inspector General

The Office of the Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation, and policy
directives governing the administration of SSA’s programs; 2) investigative procedures and
techniques; and 3) legal implications and conclusions to be drawn from audit and investigative
material produced by the OIG. The Counsel’s office also administers the civil monetary penalty
program.
